February 29, 2008

ANTHONY M. PAJUNAS
VICE PRESIDENT, NETWORK OPERATIONS

JO ANN FEINDT
VICE PRESIDENT, GREAT LAKES AREA OPERATIONS

SUBJECT: Audit Report – St. Louis Airport Mail Center Outsourcing
         (Report Number EN-AR-08-002)

This report presents the results of our audit of the outsourcing of some operations at the
St. Louis Airport Mail Center (AMC) (Project Number 07XG029EN000). Our objectives
were to evaluate the planning, impact, and results of the outsourcing and evaluate
compliance with policies and procedures. We conducted this review in response to a
request from the Postal Service and in accordance with our Value Proposition
Agreement.1 This is the first in a series of reviews examining outsourcing initiatives. 2

                                               Background
The Postal Service maintains AMCs and airport mail facilities (AMF)3 for the purpose of
expediting mail transfer to and from commercial air carriers. This transfer is called the
tender and receipt of mail. In many cases, these airport facilities have excess capacity
as a result of declining volumes of mail tendered to commercial air carriers.
Commercial air volume has declined from approximately 837 million pounds of mail in
fiscal year (FY) 2004 to approximately 368 million pounds in FY 2007. Figure 1 shows
this trend. To address this issue, the Postal Service began standardizing AMCs by
returning non-core AMC operations to processing and distribution centers (P&DC) and
bulk mail centers (BMC). This standardization enabled the Postal Service to reduce
inefficiency, improve productivity, and reduce costs at AMCs. See Appendix A for
additional background information.



1
  A value proposition is a signed agreement between the Office of Inspector General and management to perform
one or more specific audits in an agreed-upon time period.
2
  AMC outsourcing is one of many outsourcing initiatives of the Postal Service. Outsourcing is the use of outside
resources to perform activities that internal staff and resources traditionally handle.
3
  We are using the term AMC in this report to represent both AMCs and AMFs, which perform essentially the same
functions and have the same operations. AMCs are generally larger than AMFs.
St. Louis Airport Mail Center Outsourcing                                                        EN-AR-08-002




                                                 Figure 1. Commercial Air Mail
                                                         Volume Trend
                                         1,000



                    Pounds in Millions
                                          800

                                          600

                                          400

                                          200

                                            0
                                                   FY 2004    FY 2005   FY 2006      FY 2007



                                           Objectives, Scope, and Methodology
We discuss our objectives, scope, and methodology in Appendix B.

                                                     Prior Audit Coverage

We did not identify any prior audits or reviews related to the objectives of this audit.4

                                                             Results

Although the decision to outsource some operations at the St. Louis AMC was
supported and should reduce costs with minimal impact on service performance,
management could have improved planning for this initiative. While management
generally complied with policies and procedures, opportunities exist to formalize lessons
learned and best practices and enhance guidance for measuring results. This condition
occurred because management had not fully developed outsourcing guidance and this
was a new initiative. We also found the former AMC building remained on the Postal
Service’s records after ownership had been transferred to the city of St. Louis.

Planning, Impacts, and Results

Although the standardization and outsourcing of some operations at the St. Louis AMC
met the organization’s strategic goal of realigning the network to reduce costs,
management could improve the planning process. The decision to outsource the



4
  On August 28, 2007, the Government Accountability Office (GAO) announced a review of Postal Service
outsourcing. The GAO plans to assess recent trends and future plans in outsourcing; how the Postal Service
manages, oversees, and measures performance of outsourcing functions; and estimated cost savings of outsourcing
functions.




                                                                2
St. Louis Airport Mail Center Outsourcing                                                                  EN-AR-08-002



handling of destinating mail5 and close the AMC was supported and should reduce
costs with minimal impact on service. However, headquarters management did not
provide specific guidance on how to outsource and close the St. Louis AMC.

    Planning

    •    Headquarters management used a strategic (top-down) approach for reviewing
         alternatives and outsourcing operations at various AMCs, including St. Louis.
         This approach allowed the Postal Service to conduct more consistent and
         objective data analysis. Management prepared a comparative analysis that
         indicated outsourcing the core operations6 of dispatch and receipt of mail at the
         St. Louis AMC would be more efficient and cost-effective than opening and
         operating an airport transfer center (ATC).7 The analysis used an ATC as a
         baseline for comparison purposes.8 The assumption was that the ATC would
         only perform the core operations of dispatch, receipt, and ramp activities at the
         facility.

    •    In addition, Great Lakes Area, Gateway District, and local St. Louis managers
         developed alternatives for standardizing the St. Louis AMC. These alternatives
         included keeping the AMC open, converting the AMC to an ATC, and outsourcing
         AMC core operations and closing the facility. Managers visited Boston and
         familiarized themselves with the processes involved in the outsourcing and
         closure of the Boston AMC. They also obtained and reviewed procedures used
         during the closure of the Grand Rapids AMC. Using this tactical (bottom-up)
         approach enabled local management to take ownership of the initiative. Local
         management conducted this research because outsourcing and closing AMCs
         was a new initiative. The Postal Service did have established guidelines9 which
         provide general procedures to assist management when evaluating a proposed
         outsourcing initiative. However, headquarters management’s input on lessons
         learned and best practices did not include specific guidance on how to outsource
         or close a facility.

         Management chose to modify the 2006 Commercial Air (CAIR-06) contract10 and
         outsource the handling of destinating mail, and subsequently closed the facility.
         Management solicited the handling of destinating mail at the St. Louis airport

5
  Outsourcing at St. Louis only covered the handling of destinating mail. Originating mail is processed at local Postal
Service facilities. Handling of destinating mail entails receiving incoming mail from air transportation suppliers,
scanning and separating mail into ZIP Code ranges (sortation), and containerizing the mail for dispatch to the Postal
Service facility for delivery.
6
  AMC core functions include assigning mail to flights, receiving and dispatching mail to and from air carriers (tender
and receipt of mail), accepting and sorting mail to and from plants, performing quality control of air carrier operations,
and managing functions specific to airport operations.
7
  The Postal Service previously considered converting AMCs to ATCs, with responsibility for tendering and receiving
mail to commercial airlines.
8
  In outsourcing guidance, this is referred to as the most efficient internal operation.
9
  Guidelines for Considering National Outsourcing Initiatives, dated December 2005.
10
   CAIR-06 was the current contract for transportation of domestic mail by passenger airlines.




                                                            3
St. Louis Airport Mail Center Outsourcing                                                                EN-AR-08-002



         within the CAIR-06 contract. The CAIR-06 contractor, American Airlines, already
         had a facility on site to manage the outsourced operations.

         The entire St. Louis AMC outsourcing process, from initial planning meeting to
         implementation, took approximately 18 months – from April 2005 to September
         2006. See Appendix C for a timeline of the St. Louis AMC outsourcing initiative.

     Impacts

     •   We concluded that standardization and outsourcing of the St. Louis AMC
         functions, collectively, eliminated excess capacity and had minimal impact on
         service performance.

         o Excess capacity – Standardization and outsourcing at the St. Louis AMC
           reduced the number of employees and workhours and permitted elimination of
           a facility.

                  ♦ Management reduced the staff by 48 employees as a result of AMC
                    standardization11 and outsourcing. At the time management
                    conducted the study that considered alternatives for the St. Louis
                    AMC, 71 employees at the AMC were performing core and non-core
                    AMC operations. The study indicated management would require 28
                    employees to perform AMC core operations. Those employees would
                    work at the P&DC, BMC, and the airport, reducing the complement by
                    43 employees. Management subsequently changed the core
                    operations employee requirement12 to 23, resulting in a total
                    complement reduction of 48 employees.

                  ♦ Management eliminated a facility in a high-cost location as a result of
                    the AMC standardization and outsourcing. The St. Louis AMC building
                    originally belonged to the Postal Service, although the land under the
                    building was leased from the city of St. Louis, the owner of the
                    Lambert-St. Louis International Airport. The lease expired on
                    December 31, 2005, and on January 1, 2006, the city of St. Louis
                    became the owner of the building. At that time, lease payments
                    increased from approximately $60,000 to approximately $293,000
                    annually. The Postal Service leased the facility until October 2006,
                    when it moved all operations to other local facilities and established a
                    contract for handling destinating mail. Even though the Postal Service
11
   The standardization process included the identification and transfer of non-core functions to other St. Louis
processing facilities. The Postal Service then outsourced AMC core operations required to be conducted at the
airport and transferred the remaining core operations to processing facilities.
12
   Seven of the 28 required employees were ramp clerks who would work at an airport facility. At the end of June
2007, only three ramp clerks worked at the contractor’s facility at the airport to monitor contractor performance. Also,
management determined they would not need the custodian, reducing the employee complement required for AMC
core operations to 23.




                                                           4
St. Louis Airport Mail Center Outsourcing                                                            EN-AR-08-002



                        no longer owned the facility, the building remained on Postal Service
                        records as of mid-October 2007. See the Other Matters section for
                        details.

           o Service Performance – We concluded outsourcing some St. Louis AMC
             operations had minimal impact on service performance. We evaluated service
             performance for Express Mail® and 2-day and 3-day destinating First-Class
             Mail® during FY 2005 (before the facility closed), FY 2006 (during the closure
             process), and FY 2007 (after the facility closed).

                    ♦ Express Mail on-time service performance for FY 2007 (through
                      August 2007) averaged 94.5 percent, which was slightly below
                      FY 2005 and 2006 results. The goal for Express Mail was 96 percent.
                      See Chart 1 in Appendix E for a comparison by fiscal year.

                    ♦ 2-day destinating mail on-time service performance increased from
                      88.1 percent in FY 2005 to 90.6 percent in FY 2007. The goal was
                      92 percent. See Chart 2 in Appendix E for a comparison by fiscal year.

                    ♦ 3-day destinating mail on-time service performance improved and
                      exceeded the goal of 90 percent in 2007. Service performance ranged
                      from 87.8 percent in FY 2005 to 90.1 percent in FY 2007. See Chart 3
                      in Appendix E for a comparison by fiscal year.

              The Postal Service measured contractor performance for the St. Louis AMC
              operations by delivery scans. The contract for handling destinating mail in
              St. Louis required that each mail handling unit13 be scanned, placed into postal
              containers, and made available for Postal Service employees to pick up within
              1 hour after accepting the mail from the air transportation supplier. Mail that is
              not scanned may result in nonpayment to the contractor. Although the
              contractor’s delivery performance was below the 93 percent on-time standard,
              delivery performance improved from 85.7 percent in FY 2005 to 88.7 percent
              in FY 2007. See Chart 4, Appendix F, for contractor performance.

       Results

       •   Our analysis determined that Postal Service cost savings projections were
           generally supported, but may be underestimated. While management estimated
           a total cost savings of approximately $2.3 million, we estimated a total cost
           savings of approximately $3.1 million.14 Table 2, Appendix D, compares Postal
           Service calculated cost savings to U.S. Postal Service Office of Inspector
           General (OIG) calculations. We attributed the difference to the following factors:

13
     A handling unit is defined as an individual package, parcel, letter tray, flat tub, or sack.
14
     We used FY 2005 data to capture all savings associated with the closure of the St. Louis AMC.




                                                           5
St. Louis Airport Mail Center Outsourcing                                                             EN-AR-08-002




     •   Management used actual lease costs for FY 2005 rather than the higher cost of
         leasing both the building and land.
     •   Management calculated labor savings using fully loaded hourly rates for
         2,080 hours annually rather than actual costs.
     •   Management estimated contract costs at approximately 20 million pounds at
         Xxxxxx per pound. The actual contract cost per pound was Xxxxx and the
         number of pounds the contractor handled was less than originally projected.15

The closure of the St. Louis AMC and outsourcing of the handling of destinating mail
reduced costs and improved efficiency without impairing service. Therefore, we
concluded the outsourcing was a good business decision.

Recommendation

We recommended the Vice President, Network Operations:

1. Formalize lessons learned and best practices from AMC closures and develop
   guidance for planning and implementing outsourcing of AMC operations.

Compliance with Policies and Procedures

Management generally complied with outsourcing policies and procedures, including
Article 1216 and Article 3217 of the national agreement with the unions, although
compliance may be tested by arbitration. In June 2006, management advised the
unions in accordance with Article 12 that the St. Louis AMC would be closed, jobs would
be abolished, and employees would become unassigned regulars. Management met
with the unions while developing the comparative analysis for the St. Louis AMC prior to
deciding to outsource as required by Article 32 of the national union agreements. In
October 2004, management first notified union officials they were reviewing future
needs of AMCs. Article 32 requires the Postal Service to consider five factors when
considering outsourcing. The Postal Service’s and the OIG’s consideration of the five
factors are described in Appendix G.



15
   After the contract was established, the Postal Service projected the contract cost for FY 2007 would be xxxxxxxx.
Contract costs have not met these projections because the Postal Service has placed more mail volume on Federal
Express flights and surface transportation than anticipated. As of August 31, 2007, actual contract costs were only
xxxxxxx, which we projected to total xxxxxxx by the end of FY 2007.
16
   Article 12 of the Collective Bargaining Agreement applies when a major relocation of employees is planned in
major metropolitan areas. The Postal Service must meet with the unions at the national level at least 90 days in
advance of the plan’s implementation and meet at the regional level in advance (as much as 6 months when
possible). When an independent installation is discontinued, full-time and part-time employees will be involuntarily
reassigned to continuing installations, to the maximum extent possible.
17
   Article 32 of the Collective Bargaining Agreement between the Postal Service and labor unions requires the Postal
Service to meet with unions while developing an initial comparative analysis and consider the unions’ views of costs
and other factors when considering outsourcing.




                                                         6
St. Louis Airport Mail Center Outsourcing                                                  EN-AR-08-002



The National Postal Mail Handlers Union and the American Postal Workers Union
initiated a national dispute regarding the Article 32 process for outsourcing the St. Louis
AMC. This dispute has not been arbitrated and is not scheduled for arbitration.

Measuring Results

While management generally complied with outsourcing policy, opportunities exist to
enhance guidance for measuring results. Management had not established policies or
procedures for determining if outsourcing initiatives achieved intended results.
Specifically, management did not require post-implementation reviews (PIR) for
outsourcing initiatives and AMC closings. Without a PIR, there was no management
accountability or assurance that the outsourcing initiative achieved anticipated results.

The Postal Accountability and Enhancement Act18 (Postal Act of 2006) requires the
Postal Service to establish a facilities plan, which must include information regarding
cost-saving initiatives. The Postal Act of 2006 also requires the Postal Service to
submit an annual report to Congress on how its decisions have impacted or will impact
network rationalization plans. This report must include actions taken to identify excess
capacity within the processing, transportation, and distribution networks and implement
savings through realigning or consolidating facilities. The report must include overall
estimated costs and cost savings.

Comparing projected with actual results after outsourcing and closing an AMC ensures
accountability for decision making, helps management meet goals and objectives, and
would assist with informing Congress regarding how such actions have impacted
network rationalization.

Recommendations

We recommended the Vice President, Network Operations:

2. Establish a post-implementation review program for AMCs that compares
   anticipated savings with actual results, along with a methodology to calculate
   savings.

We recommended the Vice President, Great Lakes Area:

3. Conduct a post-implementation review for the St. Louis AMC closure and
   outsourcing initiative using the guidance established in recommendation 2.




18
     Postal Accountability and Enhancement Act, Public Law 109-435, dated December 2006.




                                                         7
St. Louis Airport Mail Center Outsourcing                                     EN-AR-08-002




Management Comments

Management agreed with our findings and recommendations and will implement
corrective action. Management’s comments, in their entirety, are included in
Appendix H.

Evaluation of Management’s Comments

The OIG considers management’s comments responsive to the recommendations in the
report. In addition, where appropriate we incorporated management’s suggestions to
clarify the report. The OIG considers recommendations 2 and 3 significant, and
therefore requires OIG concurrence before closure. Consequently, the OIG requests
written confirmation when corrective actions are completed. These recommendations
should not be closed in the follow-up tracking system until the OIG provides written
confirmation that the recommendations can be closed.

Other Matters

During this audit, an issue came to our attention that warranted management’s
attention. We are briefly describing the issue so management can review it more
thoroughly and take corrective action.

In August 2007, we determined the Postal Service still recorded the St. Louis AMC
building on its records as an asset. As of October 15, 2007, the un-depreciated value of
the building was $1,097,120. However, on January 1, 2006, the Postal Service
transferred ownership of the St. Louis AMC to the city of St. Louis, Lambert International
Airport. At that time, the Postal Service began paying rent for both the building and
land. In October 2006, the Postal Service vacated the facility but continued to pay rent
through December 2006. Management advised they could not remove the asset from
their records until the overpaid rent had been refunded. Because the facility was still on
Postal Service records, the Postal Service’s assets were overstated by $1,097,120.

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions, or need additional information, please contact Michael A. Magalski, Director,
Network Optimization, or me at (703) 248-2100.
  E-Signed by Colleen McAntee
 ERIFY authenticity with ApproveI



Colleen A. McAntee
Deputy Assistant Inspector General
 for Mission Operations

Attachments



                                            8
St. Louis Airport Mail Center Outsourcing       EN-AR-08-002



cc: Patrick R. Donahoe
    William P. Galligan
    Tom A. Samra
    Danita Aquiningoc
    Katherine S. Banks




                                            9
St. Louis Airport Mail Center Outsourcing                                                           EN-AR-08-002



                                   APPENDIX A: BACKGROUND
     The U.S. Postal Service identified Network Integration and Alignment (NIA) as a
     strategy in the 2002 Transformation Plan.19 NIA’s charter was to create a flexible
     logistics network that would reduce the Postal Service’s and customers’ costs,
     increase operational effectiveness, and improve consistency of service. In 2003,
     the President’s Commission20 found the Postal Service had more facilities than
     needed and recommended optimizing the facility network.

     The Strategic Transformation Plan 2006-201021 stated the efforts to create a
     flexible network to increase productivity and effectiveness — formerly called NIA —
     would continue as an evolutionary process, called Evolutionary Network
     Development. One of these efforts was to re-examine the role of AMCs to
     determine if these facilities could be reduced and better coordinated using third-
     party facilities. The 2006 Annual Progress Report22 noted that because of the
     consolidation of air contractors and expansion of the surface transportation
     network, the Postal Service was reviewing AMCs. At that time, management was
     considering contracting out operations at 43 AMCs.

     In December 2006, the Postal Act of 2006 established the requirement that the
     Postal Service provide a facilities plan to include a strategy for rationalizing the
     facilities network and removing excess processing capacity and space from the
     network.

     The Federal Aviation Administration imposed security restrictions after September
     11, 2001, which resulted in the Postal Service no longer using commercial
     passenger aircraft for Priority Mail®. Consequently, there was a significant
     decrease in the volume of mail tendered to commercial passenger carriers. Priority
     Mail was tendered to Federal Express and United Parcel Service and containerized
     by terminal handling services in specially configured facilities. This contributed to
     the underutilization of AMC facilities. Prior to the start of this AMC initiative, there
     were 79 AMCs. These AMCs comprised approximately 12 percent of the facilities
     within the Postal Service’s processing network.

     Management implemented a nationwide integrated air strategy in January 2006
     which included reducing reliance on passenger airlines, renegotiating and renewing
     the Federal Express contract, and, where possible, shifting mail moved by air to
     less costly ground transportation. This strategy would allow the Postal Service to
     eliminate infrastructure because contractors would perform tender and receipt of
     mail and other AMC core operations which would reduce or eliminate the need for
     some AMCs.

19
   United States Postal Service’s Transformation Plan, dated April 2002.
20
   Report of the President’s Commission on the United States Postal Service, dated July 31, 2003.
21
   USPS Strategic Transformation Plan 2006-2010, dated September 2005.
22
   Strategic Transformation Plan, 2006-2010, 2006 Annual Progress Report, dated December 2006.




                                                        10
St. Louis Airport Mail Center Outsourcing                                      EN-AR-08-002




     The Postal Service issued a new commercial air contract with seven air carriers in
     September 2006. These carriers were: American Airlines, American Trans Air,
     Continental, Jet Blue, Midwest Express, Sun Country, and US Airways/America
     West. In April 2007, the Postal Service added an eighth air carrier, United Airlines,
     on a trial basis. The previous commercial air contract used 17 air carriers. At the
     same time, the Postal Service continued with its air-to-surface initiative which
     diverted 3-day First-Class Mail volume to surface transportation. This reduction of
     air carriers and increased use of surface transportation provided an opportunity to
     use direct tender and receipt of mail.




                                            11
St. Louis Airport Mail Center Outsourcing                                    EN-AR-08-002



          APPENDIX B: OBJECTIVES, SCOPE, AND METHODOLOGY

     The objectives of the audit were to evaluate the planning, impacts, and results of
     the St. Louis AMC outsourcing initiative and evaluate compliance with relevant
     policies and procedures. To accomplish the objectives, we interviewed Postal
     Service managers; visited the St. Louis P&DC, BMC, former AMC, and the current
     contractor’s facility; and performed a limited review of Article 12 and Article 32
     processes the Postal Service followed for the termination and outsourcing of AMC
     operations. We also reviewed the outsourcing cost analysis for accuracy and
     support, service performance before and after the outsourcing of AMC core
     operations, and workhours before and after the outsourcing. In addition, we
     reviewed available guidance for outsourcing mail processing operations at AMCs
     and implications from the Postal Accountability and Enhancement Act.

     We relied on Postal Service data systems, including the National Workhour
     Reporting System, Web Enterprise Information System, and Enterprise Data
     Warehouse System. We did not test the controls over these systems. However,
     we checked the accuracy and reasonableness of the data by confirming our
     analysis and results with management and by consulting different data sources.
     We found no material differences. Since the comparative analysis that was
     developed to evaluate AMC outsourcing could not be used to project cost savings,
     we relied on other documents to complete our analyses.

     We conducted this audit from May 2007 through February 2008 in accordance with
     generally accepted government auditing standards and included such tests of
     internal controls as we considered necessary under the circumstances. Those
     standards require that we plan and perform the audit to obtain sufficient,
     appropriate evidence to provide a reasonable basis for our findings and conclusions
     based on our audit objectives. We believe that the evidence obtained provides a
     reasonable basis for our findings and conclusions based on our audit objectives.
     We discussed our observations and conclusions with management officials on
     September 13 and 17, 2007, and included their comments where appropriate.




                                            12
St. Louis Airport Mail Center Outsourcing                                                                                                            EN-AR-08-002



                                                   APPENDIX C: TIMELINE




                                  St. Louis AMC Outsourcing Timeline
                                                                             Meetings with             Outsourcing
                                               Unions notifed staffing to be Unions                    Contract (Aug      Finance validated CA
                                               impacted by AMC               (Dec 13-14, 05)           18, 06)*           (Sep 19, 06)
                                               standardization (Dec 05)
          Local unions advised
                                                                               Correspondence
          of review of future                                                                                                Labor unions advised of final decision
                                             AMC                               between unions          Unions
          needs of AMCs                                                                                                      to outsource (Oct 6, 06)
                                             Standardization                   and Postal              advised AMC
          nationwide (Oct 04)
                                             Plan completed -                  Service (Jan - Apr      to close
                                             (Sep 05)                          06)                     (Jun 16, 06)            Effective date of
                                                                                                                               service (Oct 7, 06)




           FY05 Q 1     FY05 Q2    FY05 Q3       FY05 Q4      FY06 Q1       FY06 Q2       FY06 Q3        FY06 Q4        FY07 Q1        FY07 Q2        FY07 Q3     FY07 Q4
                                                                                      Closure date
                                  First                                               provided by
          Local unions                                        Draft Initial                                                 Operations Terminated/Effective
                                  Planning                                            HQ to District
          advised AMCs to                                     Comparative                                                   date of contract (Sep 30, 06)
                                  Meeting (Apr                                        in Spring 06
          be standardized                                     Analysis (CA)
          and return to core      05)                         provided to
                                                              unions                                                  Strategic Initiatives Board
          operations (Nov                                                          Updated Initial CA to
                                                              (Nov 10, 05)                                            aprroved decision for
          04)                                                                      Unions
                                                                                                                      outsourcing (Sep 27, 06)
                                                                                   ( May 06)




         * Modification to CAIR-06-AA




                                                                           13
St. Louis Airport Mail Center Outsourcing                                                          EN-AR-08-002




        APPENDIX D: ST. LOUIS AMC STAFFING AND COST SAVINGS

                               Table 1. ST. LOUIS AMC STAFFING23

                                                          Prior to               After
                                                      Standardization/      Standardization/
                                                        Outsourcing           Outsourcing
                           General Clerk                      2                    0
                            Ramp Clerk                        7                    3
                          Transfer Clerk                      5                    0
                          Registry Clerk                      4                    4
                        Express Mail Clerk                    3                    3
                         Automation Clerk                     7                    0
                             Custodian                        4                    0
                      Air Records Processor                   1                    0
                           Mail Handler                      32                   12
                      Supervisor Distribution
                            Operations                         4                    0
                   Air Transportation Specialist               1                     1
                          Manager AMC                         1                     0
                               Total                          71                    23




                                       Table 2. COST SAVINGS24
                                                    Postal Service                   OIG
                Facility                          $       59,575               $      293,765
                Closing Costs                            (30,000)                     (30,000)
                Labor                                 3,143,347                     2,992,59425
                Transportation                           (42,829)                     (42,829)
                Contract                               (811,951)                      (95,865)
                               Total Cost Savings $ 2,318,142                  $    3,117,665




23
   No AMC employees lost their job as a result of the outsourcing. Management transferred most employees to
existing vacancies at other facilities.
24
   The OIG validated facility, labor, and contract costs. Validated contract costs include FY 2007 actual through
August 31, 2007, and projected for September 2007. In addition, the Postal Service may incur a one-time expense of
$1,097,120 on its financial statements to write-off the book value of the airport facility.
25
   The labor savings are based on a reduction of 48 employees.




                                                       14
St. Louis Airport Mail Center Outsourcing                                              EN-AR-08-002



                         APPENDIX E: SERVICE PERFORMANCE



                     Chart 1. Next-Day (Express Mail) On-Time
                                   Performance

                                                100
                                                    95
                                 Percentage



                                                    90
                                                    85
                                                    80
                                                    75
                                                    70
                                                           2005         2006    2007
                                                                  Fiscal Year




                     Chart 2. 2-Day Destinating Mail On-Time
                                  Performance
                                              100

                                              95

                                              90
                         Percentage




                                              85

                                              80

                                              75

                                              70
                                                         2005        2006       2007
                                                                  Fiscal Year




                                                                   15
St. Louis Airport Mail Center Outsourcing                              EN-AR-08-002



           APPENDIX E: SERVICE PERFORMANCE (CONTINUED)


                    Chart 3. 3-Day Destinating Mail On-Time
                                 Performance
                                     100

                                     95

                                     90
                        Percentage




                                     85

                                     80

                                     75

                                     70
                                           2005      2006       2007
                                                  Fiscal Year




                                                   16
St. Louis Airport Mail Center Outsourcing                          EN-AR-08-002



                                APPENDIX F: DELIVERY PERFORMANCE


             Chart 4. American Airlines Destinating Mail
                       On-Time Performance
                                100

                                95

                                90
                   Percentage




                                85

                                80

                                75

                                70
                                      2005      2006       2007
                                             Fiscal Year




                                                   17
St. Louis Airport Mail Center Outsourcing                                                           EN-AR-08-002




                      APPENDIX G: FIVE ARTICLE 32 FACTORS



                                                    Five Factors
                                         Postal Service26                                    OIG27
 Public Interest           Primary goal of Transformation Plan is to       Overall, costs are reduced and service
                           reduce costs and stabilize rates for            performance was not adversely affected,
                           customers. Use of a contractor provides         which serves the public interest.
                           a more favorable bottom line for the
                           Postal Service and is in the best interest
                           of the public.
 Cost                      Combination of eliminating a costly,            Outsourcing costs are less than the cost
                           oversized Postal Service-maintained             of maintaining, staffing, and operating
                           facility and properly identifying               the facility with Postal Service resources.
                           requirements for a succeeding facility
                           should result in significant reductions in
                           cost.
 Efficiency                Combination of eliminating a costly,            Mail can be processed with fewer
                           oversized Postal Service-maintained             resources, resulting in improved
                           facility and properly identifying               efficiency.
                           requirements for a succeeding facility
                           should result in significant efficiency
                           gains.
 Availability of           The types and quantity of containers and        No impact with either in-house or
 Equipment                 other equipment used will not change.           outsourcing.
                           There should be no impact with either an
                           in-house or outsourced approach.
 Qualification of          Both Postal Service and contractor              Both Postal Service and contractor
 Employees                 employees are equally qualified to              employees are qualified to tender and
                           provide the required services.                  receive the mail.
 Conclusion                Outsourcing will have an impact on              Outsourcing is justified when it results in
                           Postal Service employees, but                   significant savings without a negative
                           outsourcing will improve processing             impact on service or efficiency.
                           efficiencies for mail transported by air at
                           a lower cost than using Postal Service
                           labor in a properly sized facility.




26
   The Postal Service addressed the five factors based on either establishing an ATC using Postal Service employees
or outsourcing the entire AMC core operations.
27
   The OIG independently assessed the five factors based on outsourcing the handling of destinating mail,
reassigning other mail processing functions to other postal facilities, and closing the AMC facility.




                                                        18
St. Louis Airport Mail Center Outsourcing              EN-AR-08-002



                   APPENDIX H: MANAGEMENT’S COMMENTS




                                            19
St. Louis Airport Mail Center Outsourcing        EN-AR-08-002




                                            20
St. Louis Airport Mail Center Outsourcing        EN-AR-08-002




                                            21
